SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

January 29, 2020
In re:

In re Marriage of Debbie Pittman, petitioner, and Ronnie Pittman,
respondent. Leave to appeal, Appellate Court, First District.
125095

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 03/04/2020.
Neville, J., took no part.
Very truly yours,

Clerk of the Supreme Court

NOTICE

Tha text of this order may
be changed or corrected
prior to the tfme for filing 0f
a Petition for Rehearing or
the disposition of ih e same.

2019 ILApp (1st) 161316-U
FOURTH DIVISION
June 28, 2019
No. 1-16-1316

NOTICE: I his order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST JUDICIAL DISTRICT
In re MARRIAGE OF
DEBBIE PITTMAN,
Petitioner-Appellant,
and

)
)
)
)
)

Appeal from the
Circuit Court of
Cook County.

)

No. 12 D 10425

)
)
)

RONNIE PITTMAN,

)

Respondent-Appellee.

)

Honorable
Andrea Schleifer,
Judge Presiding.

PRESIDING JUSTICE McBRIDE delivered the judgment of the court.
Justices Reyes and Burke concurred in the judgment.
ORDER
If 1

Held'. This court lacks jurisdiction because petitioner’s notices of appeal were untimely
as to all issues except indirect civil contempt claims and appeal of those issues
dismissed. The trial court did not abuse its discretion in finding petitioner to be in
indirect civil contempt.

If 2

This appeal involves the litigious and protracted divorce proceedings between petitioner

Debbie Pittman, appearing pro se, and respondent Ronnie Pittman. We note that both of the
parties are legally blind. Following the trial court’s judgment for dissolution of marriage in

c
No. 1-16-1316
August 2015, respondent alleged in his motion to reconsider the dissolution judgment that
petitioner had fraudulently concealed considerable assets. In subsequent proceedings, the trial
court (1) entered a temporary restraining order (TRO) against petitioner to enjoin her access to
her bank accounts to prevent further removal of assets, (2) held petitioner in indirect civil
contempt and ordered a purge of $ 15,000, (3) entered a modified dissolution judgment altering
the financial and property distributions based on petitioner’s actions, and (4) ordered petitioner to
pay attorney fees for her prior counsel and partial payment of attorney fees for respondent’s
counsel.
Petitioner appeals, raising 20 issues on appeal. She argues that the trial court: (1) erred in
tailing to provide a reasonable accommodation under the Americans with Disabilities Act
(ADA); (2) improperly relied upon her business bank account in its findings; (3) erred in denying
petitioner her constitutional right to life when petitioner was ordered not to spend any money and
not to have any assets; (4) erred in denying petitioner’s motion for substitution of judge as of
right; (5) erred in denying petitioner’s substitution of judge for cause without a hearing before a
different judge; (6) erred by charging petitioner with indirect civil contempt when the order
could not be abided by, making the order indirect criminal contempt; (7) erred in finding
petitioner guilty of indirect civil contempt and sanctioning her $15,000, and requiring her to pay
respondent’s attorney fees; (8) erred in denying petitioner an order of protection; (9) erred in
disregarding the validated affidavit by notary Ray Dina, which verified a structured settlement
was nonmarital property; (10) erred when it failed to impute respondent’s income from all
sources to determine maintenance and distribution of property; (11) improperly found
respondent’s Parkside property to be nonmarital; (12) erred in calculating the disbursements
from the thrift savings plan (TSP); (13) erred in denying witnesses to testify for lack of

2

No. 1.-16-1316
timeliness; (14) erred by denying an extension of time to allow petitioner’s counsel time to
prepare which forced the counsel to leave the courtroom on the first day of trial; (15) erred in
denying petitioner’s motion for summary judgment when respondent had failed to comply with
discovery; (16) improperly found petitioner liable for the Credit Union One line of credit and
that all marital debt was charged to petitioner when respondent had been the primary
breadwinner; (17) erred in awarding attorney fees to various attorneys; (18) erred in sanctioning
petitioner for noncompliance with discovery after learning petitioner had a hearing deficit; (19)
erred in failing to make respondent pay the $1500 sanction to petitioner; and (20) erred when
plaintiff was found in indirect civil contempt in July 2017 and sanctioned $9,000 without the
opportunity to present a defense.
11 4

Given the extensive record, we recount the facts as necessary to address petitioner’s

issues raised on appeal.
f5

The parties married on March 17, 1980, in Cook County, Illinois. The parties had two

sons, both of whom are legal adults. As previously noted, both parties are legally blind and
receive disability payments. During their marriage, petitioner worked as a transcriber through her
business, Pittman Enterprises and Associates. Respondent was employed by the Internal
Revenue Service.
11 6

The parties purchased a house located at 8738 S. Elizabeth Street in Chicago. During the

proceedings, petitioner resided at the residence. The property was encumbered by two loans. One
loan was through the Small Business Administration (SBA) for $12,000. The second loan was an
equity line of credit through Credit Union One for $36,000. The equity in the home was
approximately $39,000.

3

No. 1-16-1316
17

111 November 2012, petitioner filed her petition for the dissolution of the marriage citing

irreconcilable differences between the parties. Petitioner sought maintenance and attorney fees
from respondent. In January 2013, respondent filed a counterpetition for dissolution of marriage
also citing irreconcilable differences. Respondent asked to be awarded his nonmarital property
free and clear of any claim by petitioner, that petitioner be required to pay a just portion of
marital debts, and that petitioner be barred from receiving maintenance and be ordered to pay for
her own attorney fees and costs.
f8

Petitioner filed a motion for exclusive possession of the marital residence on February 19,

2013, alleging that petitioner’s physical and mental well being was jeopardized by respondent’s
occupancy in the residence by both parties, including claims that respondent had grown
increasingly physically and verbally abusive to petitioner. Respondent was granted 21 days to
respond and a hearing on the motion was set for April 16, 2013. In the interim, petitioner filed an
emergency petition for an order of protection on March 1, 2013, and sought exclusive possession
of the residence. In her attached affidavit, petitioner stated that respondent had attacked her on
February 22, 2013, and choked her. On March 1,2013, the trial court entered an agreed order
which granted respondent 24 hours to vacate the premises, and that petitioner was to have
exclusive possession of the residence until further order of the court. Respondent was permitted
to remove his clothing and personal items. He would be permitted to return at.an agreed later
date to remove any additional clothing or personal items.

19

On May 21, 2013, the trial court entered an order granting petitioner exclusive possession

of the residence “immediately and continuously for the remainder of the proceedings.”
Respondent was granted specified dates and times to return with police to retrieve remaining

4

No. 1-16-1316
personal items. However, the trial court denied petitioner’s petition for an order of protection.
Specifically, the court found:
“[Respondent’s] conduct including physical contact and harassment denies
[petitioner] of the quiet enjoyment of her home but based on the testimony and
evidence presented it does not rise to the level required for an order of
protection.”
1f 1°

In -Tune 2013, petitioner’s counsel filed a motion to withdraw representation. Petitioner

subsequently filed a pro se motion to reconsider the denial of an order of protection. Petitioner
fi led three amended versions of this motion to reconsider with the final amended version filed on
September 16, 2013. The court denied the motion to reconsider stating that "there is no basis in
law or fact alleged in petitioner’s motion which would be a basis to reconsider the orders of May
21,2013. On October 4,2013, petitioner filed a pro se motion for an order of protection, which
was identical to her previously filed third amended motion to reconsider. Petitioner attached
several exhibits, including her own affidavit, transcrip tions of phone messages from respondent,
and an affidavit from petitioner’s primary care doctor in which the doctor observed bruises on
petitioner’s neck in February 2013, and petitioner informed the doctor that respondent had been
physically abusive.
111

On October 11, 2013, the trial court set the case for trial on February 7, 2014, with

discovery to be completed on or before December 20, 2013, and parties shall exchange a list of
all witnesses at least 14 days prior to trial. On November 1,2013, the trial court denied
petitionei s petition for an order of protection finding that (1) the allegations were insufficient to
state a cause of action, (2) there was insufficient evidence of an emergency and insufficient to
meet the standards provided under the Domestic Violence Act, and (3) an additional order of

5

i

No. 1-16-1316
protection petition without substantial allegations as to evidence to meet the required standards .
shall result in sanctions.
f 12

.

■

On January 31, 2014, petitioner filed a pro se motion for summary judgment “for failure

to properly respond.” Petitioner asserted that respondent failed to respond to her discovery
requests, including interrogatories and production requests. On February 4, 2014, respondent
filed a motion in limine asking the trial court to prohibit petitioner from calling any witnesses for
which she had failed to give their name, address, or other identifying information. Attached to
the motion was petitioner’s witness list which included a list of names with no other information
as well as unnamed representatives of multiple businesses.
1113

On February 7, 2014, the day trial was set to begin, petitioner presented a motion for

substitution ofjudge as a matter of right. The trial court denied the motion, noting that a party
“can only get a substitution of judge as a matter of right if the judge has not ruled on anything. In
this case, I have ruled on things and, therefore, it will be denied.” Petitioner then asked for a
substitution for judge for cause, but tire court observed that it could not address any motion that
has not been presented in writing. Petitioner stated that she did not feel she would get a fair trial.
The court found that petitioner’s reason was not sufficient to be awarded a substitution of judge
for cause and pointed out that petitioner has “to articulate with specificity what the cause is. And
feeling that won’t get a fair trial is not sufficient.” The request was denied. Petitioner then
requested a continuance to get an attorney and asserted that she has not had the funds to pay for
an attorney.I
114

After the case was officially called, petitioner informed the court that documents sent by

respondent’s counsel on February 3, 2014, were supposed to be received by January 23,2014.
Petitioner pointed out that a note inside the packet stated January 3,2014, but the mailing date on

6

No. 1-16-1316'
the packet stated February 3, 2014. The court reviewed the certificate of service which was
certified as mailed on January 3,2014, but the FedEx tracking number indicated February 4,
2014. The court then granted petitioner’s request to exclude anything in that packet that had not
been previously tendered. Respondent’s attorney withdrew the motion in limine to bar witnesses
because the only witness present in court was petitioner’s sister and respondent did not object to
her testimony. The court noted that respondent had previously been given $30,000 to pay
attorney fees from the TSP account. The court entered an order (1) denying petitioner’s motion
lor substitution of judge; (2) denying petitioner’s motion for summary judgment; (3) sanctioned
respondent $1500 for the discovery violation; (4) awarded petitioner $30,000 for attorney fees
from the marital TSP as interest against petitioner’s marital share of the estate; and (5) continued
the trial to March 5, 2014, based on respondent’s failure to turn over documents in a timely
fashion. Also on February 7, 2014, a new attorney filed an appearance for petitioner.
If * ^

*n March 2014, respondent filed a new motion in limine again seeking to bar petitioner’s

witnesses from testifying because her witness list failed to identify the type of witness and
subjects on which the witness would testify as well as failed to provide any identifying
information. In April 2014, petitioner filed a witness list with addresses for the listed potential
witnesses as well as a list of trial exhibits. Also in April 2014, respondent filed a motion for
oupteme Court Rule 137 sanctions and attorney fees. In the motion, respondent alleged that
petitioner submitted an altered document with signatures deleted in an effort to misrepresent the
facts before the trial court. On May 30, 2014, the trial court entered an order ruling on
respondent’s motion in limine precluding three of petitioner’s witnesses and allowing one
witness to testify about a limited subject area. On July 22, 2014, the trial court granted
respondent s motion for Rule 137 sanctions, but amount of sanctions was reserved.

7

No. 1-16-1316
1[ 16

The trial on the dissolution petitions began on April 22,2014, and continued over

multiple days before concluding in August 2014. The only witnesses were petitioner, respondent,
and Ray Dina, a notary public. The testimony elicited related almost entirely about income,
spending, deposits, the loans on the marital residence, and employment history. The testimony is
summarized below as necessary for the issues raised on appeal. Both parties are receiving
disability payments.
If 17

Petitioner testified that she operated Pittman Enterprises and Associates as . a medical,

legal, and standard transcription service. According to petitioner,' the business was no longer in
operation because she was unable to get a license due to outstanding bills. However, petitioner
admitted to using a bank account affiliated with the business, sending faxes from a business
email, having a phone number listed for the business, and receiving mail for the business.
Petitioner also issued a subpoena through her business name. Petitioner testified that she was no
longer able to work due to her injuries from various accidents.
118

Petitioner received $916 per month in social security benefits. She also has received

money settlements from various vehicular accidents. A settlement with Allstate Insurance in
1985 was structured for petitioner to receive $10,000 every five years in September 1999,2004,
2009, and 2014, with a final payment of $ 151,545 in September 2019.
119

Petitioner testified at trial that she did not sign the loan documents for the Credit Union

One home equity line of credit. She maintained that the only form she signed was a right to
rescission document. She denied being a borrower on that loan and testified that respondent took
out the loan.
1120

Petitioner also testified that respondent signed a waiver of any interest in the proceeds

from her structured settlement with Allstate. While the document was not admitted into

8

iI::

No. 1-16-1316
evidence, Ray Dina testified as to his usual procedure as a notary public. He was unable to recall
notarizing the waiver document, but testified that his usual procedure was to verify the identity
of the person signing the document. He did not testify that he reviewed the document with the
signatory to confirm knowledge of contents in a document.
121

Petitioner testified that she obtained the proceeds of her Roth IRA during the separation.

Petitioner also testified extensively about receiving a $10,000 draft payment from a settlement of
a vehicular accident. According to petitioner, she was unable to deposit the proceeds because it
was a draft and not a check, which would need more time to clear the bank. She gave the draft to
a friend to deposit, who in turn gave petitioner $8,374 over several months.
H 22

Respondent worked for the IRS, but retired in 2013 due to complications from diabetes

and he received dialysis three times a week. Respondent was still living in the marital residence
when petitioner filed her action, but was hospitalized and remained in the hospital for an
extended period of time. Petitioner claimed she did not know where respondent had gone, but he
was later served in the hospital. Respondent receives pension benefits of $2700 and $890 in
social security benefits per month.
*|f 23

The parties have a TSP which was earned during respondent’s employment with the IRS.

As of March 2013, the balance in the TSP was $120,494.74. Since that time, each of the parties
has been awarded an advance of $30,000 to pay respective attorney fees. At the time of trial, the
current balance was $79,500.
1 24

Since the separation, respondent has lived in a unit on North Parkside Avenue in

Chicago. The building is a multi-unit building that respondent testified was left to him, his three
siblings, the parties’ children, and another grandchild by respondent’s mother. Initially, he lived
with one of his sisters and her family in one of the units until a rented unit was vacated. One of

9

No. 1-16-1316
his sisters managed the property. He paid a monthly amount for expenses, which he described as
rent.
1f 25

In February 2015, the trial court entered an oral ruling granting dissolution of marriage

and division of property. On August 26,2015, the trial court entered a written judgment for
dissolution of marriage mine pro tunc to February 18, 2015. The court found respondent’s
interest in the Parkside property to be nonmarital because respondent’s tax returns showed no
income generated from his interest and the court took judicial notice of the will which also left a
piano and topaz ring to petitioner. The court awarded respondent his premarital bedroom chest
and desk as well as his inherited dining set. Petitioner was awarded all property in the marital
residence except for the following: stereo equipment, the microwave, the blender, the turkey
fryer, the 50-inch television, all items left in respondent’s upstairs bedroom when he was
admitted to the hospital, all person items, the treadmills, the upright freezer, and the generator
and chain saw.
K 26

Petitioner was awarded the marital home, subject to all liens and encumbrances. Both

parties were ordered to execute ail documents necessary to transfer the property into petitioner’s
name within 60 days. If petitioner failed to transfer the property into her name, then the property
shall be placed for sale within 90 days. The court did not find petitioner’s testimony that she did
not sign the loan documents for the Credit Union One line of credit to be credible.
K 27

Respondent was awarded the balance of the TSP and 30% of petitioner’s remaining

payment of the structured settlement, $45,463.51. Petitioner was awarded maintenance in the
amount of $541 per month. Respondent was ordered to maintain life insurance policies and
designate petitioner as beneficiary of 50% of the proceeds until the parties receive their

10

i

!■

No. 1-16-1316
respective percentages of the structured settlement. Each party was ordered to pay his or her
respective attorney fees.
1f 28

Both parties filed motions to reconsider the judgment. In November 2015, respondent

filed an emergency petition for a temporary restraining order and preliminary injunction. The
petition alleged that respondent’s counsel sent a subpoena duces tecum to Allstate requesting
records related to petitioner’s structured settlement. According to the documents sent by Allstate,
petitioner’s structured settlement had a total annuity of $416,210. Petitioner was to receive a total
of $64,665 between the date of execution and September 20,2009, and a lump sum of $3 51,545
on September 20, 2014. Respondent also received a transmission detail report indicating that the
lump sum was paid to petitioner on September 20, 2014, by deposit in a bank account. Petitioner
also sent a letter to Allstate on September 2,2014, directing where to deposit the payment.
Respondent requested a TRO and preliminary injunction to enjoin petitioner from using,
removing, or transferring the funds on deposit in her JPMorgan Chase account or any other
accounts.
f 29

On November 10, 2015, the trial court found that an emergency existed and respondent

had met his burden of showing irreparable harm should petitioner have prior notice of the
petition. The court ordered JPMorgan Chase and Credit Union One to be temporarily joined as
third-party defendants and enjoined them from transferring or disbursing or otherwise allowing
access to any fluids in petitioner’s name. A TRO was entered against petitioner to restrain her
from accessing monies in her name or within her control. Respondent was awarded leave to file a
petition for civil contempt against petitioner. The TRO was set to expire on November 20, 2015.
On November 19,2015, the trial court extended the TRO and preliminary injunction by
agreement of the parties to December 2, 2015.

11

No. 1-16-1316
130

On November 23, 2015, respondent filed his amended motion for reconsideration of the

judgment for dissolution of marriage. Respondent asked the court to reconsider its judgment,
equitably divide the marital assets received by petitioner on September 20, 2014, that he not
receive less than 50%, order petitioner to refinance the former marital residence or pay off the
mortgage, terminate the award of spousal maintenance and order petitioner to return any
maintenance received, evenly divide Visa credit card debts between the parties, allow respondent
to remove petitioner as a beneficiary of his life insurance, and the parties be responsible for all
debts in their own names.
1131

On December 2,2015, the trial court entered an order on respondent’s pending motion to

reconsider and the TRO, The court extended the preliminary injunction “indefinitely pending the
conclusion of this action and any appeals, if applicable.” Petitioner was ordered to prepare an
accounting tracing what she did with the monies received from Allstate. Petitioner remained
“enjoined from accessing, transferring, spending, or otherwise controlling any assets in her name
or under her control.” The preliminary injunction was binding on petitioner, her agents, her
attorneys, or anyone acting on her behalf or at her direction.
If 32

On January 29, 2016, respondent filed a petition for a rule to show cause against

petitioner alleging a violation of the TRO in that petitioner spent, transferred, or withdrew
$ 10,163.73 from a previously undisclosed Bank of America savings account between November
13, 2015, and December 23, 2015. Respondent asked for petitioner to be found in indirect civil
contempt for her failure to comply with the TRO and preliminary injunction and asked for a
purge of not less than $10,163.73. Respondent also requested attorney fees incurred in pursuing
the TRO and preliminary injunction.

12

No. 1-16-1316
Tf 33

In February 2016, the trial court entered an order finding that aprima facie case of

• indirect civil contempt had been shown and the rule was issued why petitioner should not be held
in contempt of court for failure to comply with a restraining order, order of accounting, and
temporary injunction of her accounts. Petitioner was given leave to respond and the matter was
set for hearing on April 12 and 13,2016.
II34

During the interim, petitioner’s counsel filed a motion to withdraw and petitioner filed an

appearance as representing herself pro se. On April 11, 2016, petitioner sent a letter to Chief
Judge Timothy Evans requesting an investigation into the trial judge presiding over the case for
bias and an abuse of power. Petitioner also attached a motion for substitution of judge for cause.
On April 12,2016, the motion for substitution ofjudge for cause was heard and denied by
another trial judge and matter was returned to the judge presiding over the matter.
^ 35

A hearing was conducted on April l?. and 13,2016, on the motions to reconsider the

dissolution judgment and on the rule to show cause why petitioner should not be held in indirect
civil contempt. Petitioner appeared pro se at the hearing. The following evidence was presented
in the contempt pioceedings. Michael Wheeler testified that he has known petitioner for more
than ten yeais. On February 25, 2015, petitioner wired $51,000 to his bank account. Two days
later, $41,475.04 was withdrawn by cashier’s check. On June 10, 2015, $41,400 was deposited
back into Wheelei s account. On June 17,2015, Wheeler paid an SBA loan for petitioner in the
amount of $8,928.69. Wheeler testified that in February 2015, he was on disability and the bulk
of the money in his account came from petitioner. According to Wheeler, petitioner borrowed
money from him in 2012, but the actual amount was not disclosed. He admitted that petitioner
borrowed an amount less than half of the $51,000 that was deposited into his account. In October
2015, petitioner called him and asked him to pay a bill of $7,300. Wheeler did not remember to

13

No. 1-16-1316
whom the money was paid. Wheeler also testified that he spent approximately $9,000 on
petitioner’s kitchen and $4,866.24 on braille apparatus for petitioner.
If 36

On November 19, 2015, Wheeler made a deposit into his account of $27,500 from a

check from petitioner, However, Wheeler later testified that this check did not clear' and was
returned. On November 23, 2015, a withdrawal of $6,100 was made. Wheeler stated that he used
$100, but the $6,000 went toward petitioner’s kitchen.
1f 37

On cross-examination by petitioner, Wheeler stated that he loaned her $15,000 in April

2012 for basement repairs to petitioner’s house. Wheeler also loaned her $9,500 in 2013.
Wheeler testified that they had an understanding that he would be paid back double for the loans
because Wheeler had to wait to be repaid and he was one of the only people willing to help her
out and give her a loan. Wheeler admitted that there were no signed loan agreements or
promissory notes.
If 38

When the trial court asked petitioner if she was calling any witnesses at the hearing as the

burden was on her, petitioner informed the court that based on a prior statement by the court
indicating possible criminal charges, she would be pleading the fifth amendment right to remain
silent. Respondent’s attorney maintained that petitioner was not entitled to the fifth amendment
protection because they were asking that petitioner be held in indirect civil contempt and it was
not a criminal matter. An extended discussion ensued between the court, petitioner, and
respondent’s attorney. Petitioner appeared to misunderstand the proceedings. When reference
was made to the accounting ordered by the court, petitioner stated that she complied and
provided her bank statements for Chase and Bank of America. Respondent’s attorney stated that
the accounting was incomplete because it did not trace funds from one account to the other and it
did not say what checks were written off of the account. Petitioner produced a handful of bank

14

No. 1-16-1316
statements and transactions histories from several accounts in her name. Counsel stated that
petitioner had disclosed an account for Pittman Enterprises in a deposition, but had not produced
any records. Petitioner told the court that she did not transfer any funds after she learned of the
injunction on November 12, 2015, and her accounts were frozen. Petitioner asserted that the
court told her former attorney that petitioner could keep her social security check.
K 39

Petitioner was then placed under oath as a hostile witness for respondent. Petitioner

admitted that she did not prepare a document showing exactly what happened with all the funds
she received from Allstate, but she did produce bank records. When asked about a payment made
to Capital One on November 13,2015, petitioner testified that she made the payment earlier,
around the 9th or 10th. Petitioner gave a similar response when asked about a payment to Sam’s
Club on November 17,2015, that the payment had been made earlier. She admitted to making a
payment to Capital One on November 23,2015, and it was after she knew of the restraining
order, but she asserted the money possibly came from her social security. She also admitted to a
payment to Capital One on December 7,2015.
1f 40

When asked about the check for $27,500 that was given to Wheeler, petitioner pled the

fifth again. The trial court admonished petitioner that she was there for “civil contempt. This is
not a criminal action.” Petitioner continued to assert her fifth amendment rights. The court
admonished petitioner as follows:
“I’m again advising you that what I am hearing has nothing to do with
criminal charges, that there would be no criminal charges arising from your
violation of this order. You might be fined, and you could be potentially
incarcerated until you complied if the Court found that that was appropriate. But
civil contempt is different than criminal contempt, and civil contempt is not

15

No. 1-16-1316
subject - or the finding of civil contempt cannot be - the Fifth Amendment
cannot be used to protect yourself from the sanctions that would be issued if you
are found to be in contempt of court.”
U 41

Petitioner was asked again about the check to Wheeler. She responded that she tendered

that check to him on November 12, 2015. Petitioner later made a statement in which she said she
did not understand what an accounting was and did not know what was expected of her. She
provided her bank accounts with documentation. Her understanding was that a bank account
served as an accounting.
142 At the conclusion of the contempt hearing, the trial court found petitioner to be in
contempt. The hearing then proceeded to the motions to reconsider the dissolution judgment. As
lor the hearing on the motion to reconsider, respondent presented the testimony of Helen Hunt, a
branch manager for Chase bank. Hunt detailed petitioner’s account transactions from September
2014 to October 2015. Hunt testified that a deposit of $351,545 was made on September 19,
2014, by Allstate Insurance. A transfer of $300,000 was made to a savings account on September
22, 2014. On September 24, 2014, the combined balance in petitioner’s checking and savings
accounts was $338,323.33. On October 26, 2015, the combined balance in petitioner’s checking
and savings accounts was $108,913.95.
K 43

Following the proceedings, the court then entered the following order: (1) after

respondent made monthly payments on any liens on the real estate from petitioner’s monthly
maintenance, the remainder was to be held on deposit in the client’s fund account with his
attorney; (2) petitioner was found to be in indirect civil contempt for willful violation of the
November 10, November 19, and December 2, 2015 court orders; (3) petitioner shall purge
herself of the finding of indirect civil contempt by payment of $15,000; (4) respondent’s attorney

16

No. 1-16-1316
was granted 14 days to file a fee petition with petitioner being granted the same amount of time
to respond; and (5) petitioner was granted 28 days to respond to her former attorney’s fee
petition. On April 21, 2016, respondent’s attorney filed a fee petition seeking ajudgment of
$16,371.20 for attorney fees.
1f44

Petitioner filed a notice of appeal on May 10, 2016. On May 18, 2016, the trial court

entered the following order after a hearing: (1) three subpoenas served by petitioner to US Bank,
Credit Union One, and her first attorneys were quashed; (2) petitioner was barred from serving
future subpoenas without leave of the court; (3) petitioner’s motion objecting to sanction and
motion for extension of time to pay sanction fees was denied; (4) petitioner’s motion for
reconsideration was denied; (5) respondent’s motion for reconsideration was granted and matter
was continued to June 10, 2016, for entry of the court’s amended judgment for dissolution of
marriage, (6) respondent’s spousal maintenance obligation was terminated instcinter and
petitioner was barred from returning to that or any other court to request spousal maintenance in
the future; (7) any spousal maintenance held in escrow was to be returned to respondent; (8) the
fee petitions for respondent’s attorney and petitioner’s attorney were continued; and (9)
petitioner “shall not file any further pleadings without leave of court as her filing of multiple
motions and pleadings have failed to comply with minimum requirements of the rules of civil
pioceduie, the Supreme Court and Circuit Court rules.” On May 19,2016, the trial court entered
an order of commitment of petitioner for her willful contempt in violating the court orders and
ordered the sheriff to take and keep custody of petitioner until she purged herself of contempt by
posting a $15,000 cash bond. Petitioner filed an amended notice of appeal on May 19, 2016.
'[45

0n June 10,2016, the trial court made extensive findings on the record including

amending the judgment for dissolution of marriage. Petitioner informed the court that the

17

No, 1-16-1316
$15,000 purge on the contempt order had been paid. The court awarded $5,098.20 to petitioner’s
attorney for outstanding attorney fees to be paid by July 11,2016. The court found that the
Allstate structured settlement documents presented to the court had been doctored either by
petitioner or someone at her direction. Evidence from Allstate showed that petitioner received
$351,000 while the action was pending in September 2014. The court awarded attorney fees of
$16,371.20 to respondent’s counsel and ordered the $15,000 paid to purge the contempt to be
turned over in partial satisfaction of the attorney fees.
46

The trial court terminated any obligation for respondent to pay maintenance to petitioner

retroactive to the entry ofjudgment and temporary maintenance. The court awarded the house to
petitioner, but she was responsible for any liability on it. Petitioner was to hold respondent
harmless from any liability. If petitioner failed to refinance the property causing respondent to be
left with liability, then the property shall be transferred to him. Specifically, the court held that
petitioner was obligated to pay the Credit Union One line of credit, the SBA loan, and any other
obligations arising from the use and occupancy of the property. The court ordered petitioner to
refinance the property in 120 days. Petitioner was ordered to pay rent in an amount sufficient to
cover payments on both loans and other obligations on the property. If petitioner failed to pay
those, amounts, respondent was permitted to initiate actions to lock petitioner out, with a
minimum of five days notice. If petitioner had not refinanced the property at the end of 120 days,
then the property was to be sold by a broker of respondent’s choosing. Respondent could then
have exclusive rights to live in the home or to refinance it if he so chose. If the house was sold
and there were sufficient funds from the proceeds, respondent was to be reimbursed $6,500.
147

Respondent was awarded the remaining funds in the TSP account as well as all rights to

his pension and social security benefits. Petitioner was ordered to reimburse respondent $30,000

18

No. 1-16-1316
foi the money advanced to her from the TSP account including any possible fees or taxes. The
court further ordered that respondent was entitled to 30% of the proceeds in any lawsuit or
settlements received or initiated prior to 2014 in Cook, Lake, DuPage, or Will Counties. A
turnover order was to be issued to Chase to turn over the amount of approximately $107,000, the
remaining funds from the Allstate payment, to respondent.
If 48

Petitioner was given all right, title, and interest in Pittman Enterprises, except for any

accounts at Chase Bank or any other institutions in the name of Pittman Enterprises. Petitioner
was entitled to keep her social security benefits as well as any future income from Pittman
Enterprises or any other future organization. The contempt finding was discharged. The trial
court made the judgment effective as of that day.
If 49

The record on appeal contains no other court transcripts of proceedings or orders

.following the June 10, 2016 proceedings. As a result, we have no documentation as to what
transpired after that date in the trial court.
Tf 50

On appeal, petitioner raises multiple issues from the proceedings in the trial court.

However, before we consider the merits of petitioner’s claims, we must first review this court’s
jurisdiction over the instant appeal. While neither party raises the issue ofjurisdiction, “ an
appellate court has an independent duty to consider whether or not it has jurisdiction to hear an
appeal.” AM Realty W. L.L.C. v. MSMCRealty, L.L.C., 2016 IL App (1st) 151087, If 67; see
also Secura Insurance Co. v. Illinois Farmers Insurance Co., 232 Ill. 2d 209, 213 (2009) (“A
reviewing court must ascertain its jurisdiction before proceeding in a cause of action, regardless
of whether either party has raised the issue. ”).
151

“It is a well-established proposition that jurisdiction only arises in the appellate court

when a party timely files a notice of appeal.” Steinbrecher v. Steinbrecher, 197 Ill. 2d 514, 521

19

No. 1-16-1316
(2001). “The timely filing of a notice of appeal is both jurisdictional and mandatory.” Secura,
232 Ill. 2d at 213 (citing Ill. S, Ct. R. 301 (eff. Feb. 1, 1994)). “[T]he appellate court does not
have the authority to excuse the filing requirements of the supreme court rules governing
appeals.” Id. at 217-18. “Unless there is a properly filed notice of appeal, the appellate court
lacks jurisdiction over the matter and is obliged to dismiss the appeal.” General Motors Corp. v.
Pappas, 242 Ill. 2d 163,176(2011)
H52

“This court, however, is without jurisdiction to review judgments, orders or decrees

which are not final, except as provided by supreme court rule.” MidFirst Bank v. McNeal, 2016
IL App (1st) 150465, If 22. Supreme Court Rule 303(a)(1) provides an appeal from a final
judgment within 30 days of its entry. Ill. S. Ct. R. 303(a)(1) (eff. July 1,2017). If a timely
posttrial motion has been filed, the time for filing a notice of appeal is within 30 days after the
entry of the order disposing of the last pending postjudgment motion. Id.
1 53

We observe that pro se litigants, such as petitioner, are not entitled to more lenient

treatment than attorneys. “In Illinois, parties choosing to represent themselves without a lawyer
must comply with the same rules and are held to the same standards as licensed attorneys.”
Holzrichter v. Yorath, 2013 IL App (1st) 110287, f 78. “Pro se litigants are presumed to have
full knowledge of applicable court rules and procedures.” Steinbrecher, 197 Ill. 2d at 528.
*|f 54

Petitioner’s notices of appeal suffer from two fatal flaws. First, none of the orders

preceding petitioner’s notices of appeal were final orders. “An order is ‘final’ if it either
terminates the litigation between the parties oh the merits or disposes of the rights of the parties
either on the entire controversy or on a separate and definite part of it.” Bennett v. Chicago Title
& Trust Co., 404 Ill. App. 3d 1088, 1094 (2010); Shermach v. Brunory, 333 Ill. App. 3d 313, 316
(2002). A judgment is final if it determines the litigation on the merits so that if affirmed on

20

No. 1-16-1316
appeal, the only thing remaining is to proceed with execution of the judgment. Shermach, 333 Ill.
App. 3d at 316. An order is final when any matters left for future determination are merely
incidental to the ultimate rights that have been adjudicated by the order. Id, at 317. Stated
another way,

« < cc

[a] decree is final if*** the matters left for future determination are merely

incidental to the ultimate rights which have been adjudicated by the decree. 55

5 55

(Emphasis

omitted.) In re Marriage ofTeymour & Mostafa, 2017 IL App (1st) 161091, ^ 21 (quoting In re
Custody ofPurdy, 112 Ill. 2d 1, 5 (1986), quoting Barnhart v. Barnhart, 415 Ill. 303, 309
(1953)). [Generally only a judgment that does not reserve any issues for later determination is
final and appealable.” In re Marriage ofSusman, 2012 IL App (1st) 112068, Tf 13.
K 55

Here, petitioner filed a notice of appeal on May 10,2016, and then filed an amended

notice of appeal on May 19,2016. The trial court found petitioner to be in indirect civil contempt
with a purge of $15,000 on April 13, 2016. On May 18,2016, the trial court denied petitioner’s
motion to reconsider the dissolution judgment and granted respondent’s motion to reconsider on
May 18, 2016. The following day, on May 19, 2016, the trial corn! entered an order of
commitment for petitioner to be taken into custody by the sheriff until she purged herself of the
contempt finding by posting $15,000. However, at the time those notices were filed, proceedings
in the trial court were still ongoing. The trial court order of May 18, 2016, specifically indicated
that the amended dissolution judgment would be entered on June 10, 2016. None of the orders
preceding either the initial notice of appeal or the amended notice of appeal was final or
appealable. The amended dissolution judgment remained outstanding as well as pending fee
petitions for attorney fees. No final order had been entered from which petitioner could bring her
appeal.

21

No. 1-16-1316
If 56

Second, we do not know when the final order was entered. The June 10,2016, order was

not the final judgment by the trial court because (1) the order left the resolution of the property
open to further adjudication, and (2) the final rulings on attorney fees remained pending.
Specifically, the court granted the property to petitioner with an order to refinance within 120
days while also ordering petitioner to make payments to cover the loans and other costs related to
the property. If she failed to do this, then the property would be sold by a broker of respondent’s
choosing. The resolution of the property was not incidental to the June 10,2016, order and we
would have no ability to execute on that judgment. “In dissolution proceedings, a petition for
dissolution advances a single claim, and issues such as custody, maintenance, property division,
child support, and attorney fees are ancillary issues relating to that claim.” In re Marriage of
Mackin, 391 Ill. App. 3d 518, 520 (2009) (citing In re Marriage ofLeopando, 96 Ill. 2d 114,
118-20 (1983)). “Orders resolving individual ancillary issues are not appealable until the court
resolves the entire dissolution claim.” Id. (finding that an order dividing marital property and
setting maintenance, but that reserved ruling on child support for 180 days was not a final order).
Without a ruling on the final resolution of the marital property, the trial court’s judgment failed
to fully adjudicate all matters such that this court could execute the judgment.
1157

Moreover, it is unclear when the filial rulings on attorney fees were entered. The court

entered awards for petitioner’s former attorney to be paid by July 11,2016, as well as an award
for respondent’s attorneys, which was paid in part by the $15,000 paid to purge the contempt
finding. Sqq Phoenix Capital, LLC v. Tabid, 2016IL App (1st) 162686, f 8 (finding the order
from appealed was not final where the trial court had reserved the calculation of attorney fees in
sanctions proceedings). Based on the record before us, there are no final orders from which

22

!

No. 1-16-1316
petitioner could timely appeal. Accordingly, we lack jurisdiction to consider most of the issues
raised in petitioner’s appeal.
t58

However, we find that this court has jurisdiction for one portion of petitioner’s appeal.

Petitioner's claims related to the finding of indirect civil contempt were appealable under
Supreme Court Rule 304(b)(5). Supreme Court Rule 304(b)(5) provides that “[a]n order finding
a person or entity in contempt of court which imposes a monetary or other penalty” is
appealable without a Rule 304(a) finding that there was no just reason to delay appeal. Ill. S. Ct.
R. 304(b)(5) (eff. Mar. 8, 2016). “It is clear from the language of the rule that only contempt
judgments that impose'a penalty are final, appealable orders.” In re Marriage of Gutman, 232 Ill.
2d 145, 153 (2008). While petitioner failed to indicate in her notice of appeal the proper Supreme
Court Rule under which she could bring an appeal of the contempt finding* a notice of appeal is
to be liberally construed. In re Marriage of O'Brien, 2011 II, 109039, f 22. “[A] notice of appeal
will confer jurisdiction on an appellate court if the notice, when considered as a whole, fairly
and adequately sets out the judgment complained of and the relief sought so that the successful
party is advised of the nature of the appeal.’ ” Id. (quoting Burtell v. First Charter Service Corp.,
76 Ill. 2d 427, 433-34(1979)).
1f 59

Petitioner s notices of appeal from May 10 and May 19, 2016, list generally, among other

orders, the trial court’s orders from April 13, 2016, and May 19,2016, which included the
contempt finding. On April 13,2016, the trial court found petitioner to be in indirect civil
contempt for violating the court orders of November 10, November 19, and December 2,2015,
and in order to purge the contempt finding, petitioner was required to pay $15,000 to the Clerk of
the Circuit Court. Petitioner filed her first notice of appeal on May 10, 2016, which indicated she
was appealing the trial court’s August 26, 2015 judgment, reconsideration motions, and

23

No. 1-16-1316
subsequent orders up to April 12 13 2016.” Later, on May 19, 2016, the trial court entered an
order of commitment on petitioner’s order of indirect civil contempt. The same day, petitioner
filed an amended notice of appeal which included May 18 and 19, 2016 orders. Since petitioner
filed her notices of appeal within 30 days of the contempt orders and we are to liberally construe
her notices of appeal, we conclude that her appeal of the contempt order was timely under Rule
304(b)(5).
1 60

We now turn to the merits of petitioner’s contempt claims. According to petitioner, the

trial court’s finding of indirect civil contempt was in violation of her constitutional rights
because the contempt finding was criminal in nature and she was not afforded the constitutional
safeguards allowed for criminal proceedings.
161

“When a contempt appeal is filed, the standard of review is an abuse of discretion.” In re

Marriage of O'Malley ex rel: Godfrey, 2016IL App (1st) 151118, ^25. “A trial court abuses its
discretion only when

< w4

no reasonable person would take the view adopted by the trial court. 55

5 55

Id. (quoting Wilbourn v. Cavalenes, 398 Ill. App. 3d 837, 848 (2010), quoting Foley v. Fletcher,
361 Ill. App. 3d 39,46 (2005)). “ ‘Whether a contempt finding should be vacated is a question to
be determined on the individual facts of the particular appeal.’ ” Id. (quoting Doe v. Township
High School District 211, 2015 IL App (1st) 140857, f 121).
162

Contempt of court has been defined as ‘ “conduct that is calculated to impede,

embarrass, oi obstiuct the court in its administration of justice or derogate from the court’s
authority or dignity, or to bring the administration of the law into disrepute. 55

5 55

Windy City

Limousine Co. LLC v. Milazzo, 2018 IL App (1st) 162827,136 (quoting People v. Geiger, 2012
IL 113181,f 26, quoting People v. Ernest, 141 Ill. 2d 412,421 (1990)). “Courts have the
inherent authority to reprimand contemptuous conduct because ‘such power is essential to the

24

No. 1-16-1316
maintenance of their authority and the administration of judicial powers.’ ” Id. (quoting People v.
Simac, 161 Ill. 2d 297, 305 (1994)). “There are four main types of contempt: direct civil
contempt, direct criminal contempt, indirect civil contempt, and indirect criminal contempt.” Id.
“Properly identifying the type of contempt is critical because the procedures that must be
.followed depend on the type of contempt involved.” Id. “Direct and indirect contempt are
distinguished based upon where the contemptuous conduct occurred. A direct contempt charge is
brought when the alleged contemptuous conduct occurs in the direct presence of a judge,
whereas an indirect contempt charge is brought when the alleged contemptuous conduct occurs
outside the direct presence of a judge.” Id. f 40. Here, it is undisputed that petitioner was subject
to an indirect contempt finding because her violation of the court orders, /. e., spending money
after an injunction had been entered, occurred outside the presence of the trial court. The issue
before us is whether the indirect ci vil contempt finding was actually indirect criminal contempt
in which petitioner’s constitutional rights were violated.
f 63

Civil and criminal contempt are distinguished based upon why the contempt charge was

brought. A civil contempt charge is generally brought to compel compliance with a court order,
wheieas a criminal contempt charge is brought to punish past conduct, i. e., punishing conduct
that a court order prohibited.” (Emphasis in original.) Id. 138. Stated differently, “criminal
contempt is ‘ “instituted to punish, as opposed to coerce, **>!! for past contumacious conduct. 51

9 95

O Malley, 2016 IL App (1 st) 151118, 27 (quoting Emery v. Northeast Illinois Regional
Transportation Co., 374 Ill. App. 3d 974, 977 (2007), quoting In re Marriage ofSharp, 369 Ill.
App. 3d 271, 279 (2006)).
If 64

“In other words, civil contempt concerns future conduct while criminal contempt

concerns past conduct. Usually, the distinguishing characteristic between civil and criminal

25

No. 1-16-1316
contempt is the alleged contemnor’s ability to purge the ‘contempt charge by complying with the
order the court sought to enforce.’ ” Windy City, 2018 IL App (1st) 162827, f 38 (quoting Milton
v. Therra, 2018 IL App (1st) 171392, f 35). “A person held in civil contempt must have the
ability to purge the contempt by complying with the court order.” 0 'Malley, 2016 IL App (1st)
151118, If 26. “ ‘Civil contempt proceedings have two fundamental attributes: (1) [t]he
contemnor must be capable of taking the action sought to be coerced, and (2) no further
contempt sanctions are imposed upon the contemnor's compliance with the pertinent court
order. 5 r> In re Marriage ofWeddigen, 2015 IL App (4th) 150044, f 20 (quoting./^ re Marriage
of Betts, 200 Ill. App. 3d 26,44 (1990)). “ ‘Civil contempt is coercive in nature rather than
punitive; the finding of civil contempt results from failure to do something which the court has
ordered for the benefit or advantage of another party to the proceeding, and the court acts to
compel the contemnor to obey the order for the benefit of that other party.’ ” In re Estate of
Baldassarre, 2018 IL App (2d) 170996,1f 27 (quoting Betts, 200 Ill. App. 3d at 44). The Illinois
Supreme Court has “explained that ‘[w]hen a party is found in civil contempt of court, *** the
contempt order is coercive in nature. The court seeks only to secure obedience to its prior order.
Since the contempt order is coercive rather than punitive, the civil contemnor must be provided
with the keys to his cell.” That is, he must be allowed to purge himself of contempt even after
he has been imprisoned.’ ” In re Marriage ofKnoll & Coyne, 2016 IL App (1st) 152494, ^ 56
(quoting In re Marriage ofLogston, 103 Ill. 2d 266,289 (1984)).
f 65

“Contempt based on past actions which cannot be undone means that the contemnor lacks

the ability to purge the contempt ***because the purpose of civil contempt is to compel
compliance with court orders, not to punish.” O’Malley, 2016 IL App (1st) 151118, ^f 26.
“Therefore, whenever a court order cannot be complied with, there cannot be a finding of civil

26

No. 1-16-1316
contempt. Id. ‘j l]he substance of the contempt finding, not the label given, is what will
determine whether the contempt finding was criminal or civil in nature." Id. *| 28.
1f 66

“[Wjhen someone is charged with indirect contempt, regardless of whether it is civil or

criminal, the alleged contemnor is entitled to certain due process protections, including notice
and the opportunity to be heard.” Windy City, 2018 IL App (1st) 162827, ^ 41. “However, an
alleged civil contemnor is entitled only to minimal due process protections whereas an alleged
.

criminal contemnor is entitled to substantial due process protections.” Id. “An indirect criminal
contempt proceeding is a separate and distinct proceeding from that which underlies the
contempt charge.” Id. $ 46. “While this test might seem relatively straightforward, an analysis of
the facts of any given case involving civil or criminal contempt is crucial, as the two often share
the same characteristics.” Baldassarre, 2018 IL App (2d) 170996, $ 28.
If 67

In this case, following a hearing on April 13,2016, the trial court foimd petitioner in

indirect civil contempt based on her violation of the court orders setting forth a TRO and
preliminary injunction on petitioner’s bank accounts in that she was prevented from spending,
ttansfeiring, or otherwise controlling money. The rule to show cause filed by respondent asserted
that petitioner had spent, transferred, or withdrew a total of $10,163.73 from a previously
undisclosed bank account and failed to provide a complete accounting of the settlement payment
from Allstate. The rule requested the court order petitioner to be incarcerated and to set a purge
in an amount not less than $ 10,163.73. At the hearing, petitioner repeatedly invoked her fifth
amendment right to remain silent when asked about her violation of the court orders and
spending of money, but the court and respondent’s counsel informed petitioner that it was not a
criminal proceeding and she did not have a right against self incrimination. After finding
petitioner to be in indirect civil contempt, the court ordered a purge of $15,000, which was based

27

No. 1-16-1316
on the $10,163.73 she spent in violation of the court’s orders with the additional amount to cover
attorney fees spent by respondent in prosecuting the rule to show cause. At the following court
date on May 18, 2016, the trial court observed that petitioner had not yet paid the purge and the
following day an order of commitment was entered to take petitioner into the custody of the
sheriff until she paid the purge amount. Later, the court awarded the $15,000 purge amount the
respondent’s attorney in partial compliance with the award of attorney fees.
$ 68

After reviewing the different purposes between civil and criminal contempt, we conclude

that the trial court’s proceedings were correctly considered to be indirect civil contempt.
Petitioner violated the court’s order and the purge was set to coerce compliance. A finding of
civil contempt was proper because by paying the purge amount, petitioner was able to come into
compliance with the trial court’s order and once paid, the contempt order was lifted. “In
proceedings .concerning civil contempt, the trial court seeks only to secure obedience to its prior
order.” In re Marriage of Berio, 344 III. App. 3d 705, 712 (2003).
I 69

In the Berto case, the petitioner sought to have the respondent held in indirect civil

contempt for failing to pay the ordered amount of child support. On the day of the contempt
hearing, the respondent appeared and paid the entire arrearage, bringing himself into compliance
with the court’s order. Thus, the court declined to find him in civil contempt because there was
no longer a way for him to purge himself of contempt and no basis to find him in contempt. Id. at
712-13.
II 70

In contrast, in O ’Malley, the respondent was found to be in indirect civil contempt for

failing to abide by the deadline in selling marital residence, lying about his capacity to buy the
petitioner’s share of the property, and “killing” a sale without consulting the petitioner.
O’Malley, 2016 IL App (1st) 151118,128. On appeal, he argued that the finding was actually

28

No. 1-16-1316
indirect criminal contempt and his constitutional rights were violated. The Fifth Division of this

!

court agreed with the respondent, finding that once the marital residence had been sold, the
;

respondent was unable to comply with the marital settlement agreement or any other court
orders. Id.

30. The court concluded that the contempt finding could only be criminal in nature
i

because it was punishing the respondent for past conduct. Id.
TJ 71

Here, the dominant purpose of the contempt finding was to coerce compliance with the

court’s orders prohibiting petitioner from spending money. The amount set reflected that amount
with additional funds for attorney fees. The purge was not punitive, but for respondent’s benefit
after petitioner violated the court’s order. After the civil contempt order was entered, petitioner
held the keys to her cell, such that, once she paid the purge, she was free from the contempt
order.
Tf 72

Moreover, “[i]n a civil context, noncompliance with a court order is prima facie evidence

of contempt.” Baldassarre, 2018 IL App (2d) 170996, 36. “When aparty establishes a prima
facie case of contempt, the burden shifts to the contemnor to show cause as to why he should not
be held in contempt.” Id. “To meet this burden, the contemnor may present evidence that his
noncompliance was not willful and contumacious and that he had a valid excuse.” Id. Here, the
trial court found a. prima facie case of contempt and the burden shifted to petitioner. At the
hearing, petitioner repeatedly testified that money spent after the entry of the court order had
been spent prior to her knowledge of the order, but had failed to post until after its entry. She
also asserted that her attorney had informed her that she still had access to her social security
income. As for the accounting, petitioner stated that she believed her submission of bank
statements was sufficient as an accounting. In finding petitioner in contempt, the court concluded
that petitioner had failed to satisfy the burden to show she was not in contempt. Based on the

29

No. 1-16-1316
evidence presented at the hearing, we
cannot say that the trial court abused its discretion in
finding petitioner in indirect civil contempt with a purge of $15,000.
1f73

Accordingly, based on the foregoing reasons, we affirm the trial

civil contempt, and we dismiss all other issues raised in petitioner’s

court’s entry of indirect

appeal for lack of

jurisdiction.
If 74

Appeal dismissed in part, affirmed in part.

f

30

